      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




May 19, 2010

TO:            Marilyn Tavenner
               Acting Administrator and Chief Operating Officer
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Nationwide Review of Medicare Part A Emergency Department Adjustments for
               Inpatient Psychiatric Facilities During Calendar Years 2006 and 2007
               (A-01-09-00504)


The attached final report provides the results of our nationwide review of Medicare Part A
emergency department adjustments for inpatient psychiatric facilities during calendar years 2006
and 2007.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov.
Please refer to report number A-01-09-00504 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


   NATIONWIDE REVIEW OF
     MEDICARE PART A
  EMERGENCY DEPARTMENT
     ADJUSTMENTS FOR
   INPATIENT PSYCHIATRIC
     FACILITIES DURING
      CALENDAR YEARS
       2006 AND 2007



                      Daniel R. Levinson
                       Inspector General

                          May 2010
                        A-01-09-00504
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Under the Medicare prospective payment system for inpatient psychiatric facilities (IPF), the
Centers for Medicare & Medicaid Services (CMS) makes an additional payment to an IPF for the
first day of a beneficiary’s stay to account for emergency department costs if the IPF has a
qualifying emergency department. However, CMS does not make this payment if the
beneficiary was discharged from the acute-care section of a hospital to its hospital-based IPF. In
that case, the costs of emergency department services are covered by the Medicare payment that
the hospital receives for the beneficiary’s immediately preceding inpatient stay.

CMS designated source-of-admission code D for a hospital-based IPF to enter on its Medicare
claim form to indicate that the beneficiary was admitted from the acute-care section of the same
hospital. This code is designed to ensure that the hospital-based IPF does not receive an
additional payment for the costs of emergency department services that Medicare covers in its
payment to the acute-care hospital.

CMS’s Medicare contractors process and pay claims submitted by hospital-based IPFs.

OBJECTIVE

Our objective was to determine whether hospital-based IPFs nationwide correctly coded the
source of admission on claims for beneficiaries who had been admitted to the IPFs upon
discharge from the acute-care section of the same hospital.

SUMMARY OF FINDINGS

Hospital-based IPFs correctly coded the source of admission on 25 of the 100 sampled claims for
beneficiaries who had been admitted to the IPFs upon discharge from the acute-care section of
the same hospital. IPFs incorrectly coded the source of admission on the 75 remaining sampled
claims, and thus Medicare contractors made $3,111 in overpayments to the IPFs for emergency
department services. Based on these sample results, we estimated that for calendar years 2006
and 2007, Medicare contractors made $1.7 million in overpayments to hospital-based IPFs on
behalf of beneficiaries who had been admitted to the IPFs upon discharge from the acute-care
section of the same hospital. These overpayments occurred because the IPFs had inadequate
controls to ensure that claims were coded correctly to prevent overpayments for emergency
department services. In addition, Medicare payment controls in CMS’s Common Working File
were not adequate to prevent or detect these overpayments.

RECOMMENDATIONS

We recommend that CMS:

   •   instruct its Medicare contractors to recover the $3,111 in overpayments for the sampled
       claims;



                                                i
   •   instruct its Medicare contractors to immediately reopen the 54,702 nonsampled claims,
       review our information on these claims (which have overpayments estimated at
       $1.7 million), and recover any overpayments;

   •   instruct its Medicare contractors to emphasize to hospital-based IPFs the importance of
       using source-of-admission code D to identify beneficiaries who were discharged from the
       acute-care section of the same hospital;

   •   establish edits in the Common Working File to prevent and detect overpayments to IPFs
       that use incorrect source-of-admission codes on claims; and

   •   consider conducting periodic postpayment reviews of claims submitted after our review
       to identify any claims that were billed and paid with incorrect source-of-admission codes.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
corrective actions that it was taking or planned to take. CMS’s comments are included in their
entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Prospective Payment System for Inpatient Psychiatric Facilities ..................1
              Emergency Department Adjustment Policy...................................................1
              Prior Office of Inspector General Review .....................................................2

            OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................2
                Objective ........................................................................................................2
                Scope ..............................................................................................................2
                Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PROGRAM REQUIREMENTS ................................................................................4

          PAYMENTS BASED ON INCORRECT SOURCE-OF-ADMISSION CODES.....4

          CAUSES OF OVERPAYMENTS .............................................................................5
               Inadequate Controls at Inpatient Psychiatric Facilities ..................................5
               Inadequate Medicare Payment Controls ........................................................5

          RECOMMENDATIONS ...........................................................................................5

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS………...6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                                  INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Prospective Payment System for Inpatient Psychiatric Facilities

As mandated by the Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999,
P.L. No. 106-113, together with the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, P.L. No. 108-173 (MMA), CMS implemented a prospective
payment system for inpatient psychiatric facilities (IPF). 1 The prospective payment system was
effective for cost-reporting periods beginning on or after January 1, 2005. A prospective
payment represents reimbursement in full for the inpatient operating and capital-related costs of
furnishing Medicare-covered services in an IPF.

CMS’s Medicare contractors process and pay Part A claims submitted by institutional providers,
including IPFs. 2 Medicare contractors use the Fiscal Intermediary Shared System and the
Common Working File for claim processing.

Emergency Department Adjustment Policy

Under the IPF prospective payment system, CMS makes an additional payment to an IPF for the
first day of an inpatient psychiatric stay to account for emergency department costs. CMS makes
this payment to every IPF that has a qualifying emergency department, regardless of whether the
beneficiary was admitted through the emergency department. However, CMS does not make
this payment if the beneficiary was discharged from an acute care hospital and admitted to the
same hospital’s psychiatric unit. In that case, the costs of emergency department services are
covered by the Medicare payment that the hospital receives for the beneficiary’s immediately
preceding inpatient stay.

CMS designated source-of-admission code D for a hospital-based IPF to enter on its Medicare
claim form to indicate that the beneficiary was admitted from the acute-care section of the same
hospital. 3 This code is designed to ensure that the hospital-based IPF does not receive an


1
 The prospective payment system applies to inpatient services of psychiatric hospitals and psychiatric units of
acute-care hospitals and critical access hospitals. See the Medicare Claims Processing Manual, Pub. No. 100-04,
chapter 3, § 190.2.
2
  The MMA amended certain sections of the Act to require that Medicare administrative contractors (MAC) replace
fiscal intermediaries between October 2005 and October 2011. In this report, the term “Medicare contractors” refers
to MACs or fiscal intermediaries, whichever is applicable.
3
  This code replaced source-of-admission code 4, which indicated “transfer from inpatient hospital” but did not
indicate whether the beneficiary was admitted to the IPF from the same hospital or from a different hospital.


                                                         1
additional payment for the costs of emergency department services that Medicare covers in its
payment to the acute-care hospital.

Prior Office of Inspector General Review

In a prior review, 4 we found that a Medicare contractor had made overpayments to hospital-
based IPFs as a result of incorrect coding on claims for beneficiaries who had been admitted to
the IPF upon discharge from the acute-care section of the same hospital during calendar years
(CY) 2005 and 2006. We recommended that the Medicare contractor recover the overpayments
and educate hospital-based IPFs about the importance of reporting the correct source-of-
admission code to identify beneficiaries who were discharged from the acute-care section of the
same hospital. The Medicare contractor concurred with our recommendations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether hospital-based IPFs nationwide correctly coded the
source of admission on claims for beneficiaries who had been admitted to the IPFs upon
discharge from the acute-care section of the same hospital.

Scope

Our review covered 54,802 Medicare Part A claims submitted by all 1,208 hospital-based IPFs
for beneficiaries with discharge dates in CYs 2006 and 2007 who were admitted to the IPFs from
the acute-care section of the same hospital. These claims were paid by all 12 Medicare
contractors nationwide.

The objective of our audit did not require an understanding or assessment of the complete
internal control structure of hospital-based IPFs or Medicare contractors. Therefore, we limited
our review to obtaining an understanding of (1) hospital-based IPFs’ procedures for submitting
claims for beneficiaries who were admitted upon discharge from the acute-care section of the
same hospital and (2) Medicare contractors’ policies and procedures for paying such claims.

Our fieldwork consisted of contacting the 92 IPFs that submitted the 100 claims in our sample
and 4 Medicare contractors from April through September 2009.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance regarding hospital-based IPF
        billing and Medicare contractor payments for beneficiaries who had an immediately
        preceding stay in the acute-care section of the same hospital;

4
 Review of Mutual of Omaha’s Medicare Part A Emergency Department Adjustments for Inpatient Psychiatric
Facilities (A-01-07-00519, issued July 2008).

                                                     2
       •   used nationwide hospital inpatient data from CMS’s National Claims History file to
           match discharges from a hospital’s acute-care section to admissions to the same
           hospital’s IPF 5 and identified all claims for beneficiaries who were admitted to IPFs upon
           discharge from the acute-care section of the same hospital; 6

       •   excluded from our sampling frame all hospital-based IPF claims for CY 2006 that were
           included in our prior review;

       •   selected a random sample of 100 claims from the sampling frame of 54,802 claims
           (Appendix A);

       •   reviewed CMS’s Common Working File records for the 100 sampled claims to validate
           the results of our computer match, identify source-of-admission codes, and verify that the
           claims had not been canceled;

       •   used CMS’s PRICER program and Medicare contractors’ provider-specific information
           to reprice all sampled claims and to determine the payment error amounts for those that
           had been incorrectly coded;

       •   contacted representatives from the IPFs that submitted erroneous claims to confirm the
           overpayments and to determine the causes of miscoding;

       •   contacted four Medicare contractors to obtain an understanding of edits in the Common
           Working File to prevent and detect Medicare Part A overpayments to IPFs;

       •   estimated the total overpayments (Appendix B); and

       •   discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

Hospital-based IPFs correctly coded the source of admission on 25 of the 100 sampled claims for
beneficiaries who had been admitted to the IPFs upon discharge from the acute-care section of
the same hospital. IPFs incorrectly coded the source of admission on the 75 remaining sampled
claims, and thus Medicare contractors made $3,111 in overpayments to the IPFs for emergency
department services. Based on these sample results, we estimated that for CYs 2006 and 2007,
5
 The six-digit provider numbers for hospital-based IPFs and their corresponding acute-care hospitals are the same
except for the third digit, e.g., 18S005 for the IPF and 180005 for the hospital.
6
    National Claims History files do not include source-of-admission codes.

                                                           3
Medicare contractors made $1.7 million in overpayments to hospital-based IPFs on behalf of
beneficiaries who had been admitted to the IPFs upon discharge from the acute-care section of
the same hospital. These overpayments occurred because the IPFs had inadequate controls to
ensure that claims were coded correctly to prevent overpayments for emergency department
services. In addition, Medicare payment controls in CMS’s Common Working File were not
adequate to prevent or detect these overpayments.

PROGRAM REQUIREMENTS

Pursuant to 42 CFR § 412.424(d)(1)(v), CMS adjusts the Federal per diem base rate upward for
the first day of a Medicare beneficiary’s IPF stay to account for the costs associated with
maintaining a qualifying emergency department. CMS makes this additional payment regardless
of whether the beneficiary used emergency department services. However, the IPF should not
receive the additional payment if the beneficiary was discharged from the acute-care section of
the same hospital. In that case, the costs of emergency department services are covered by the
Medicare payment to the hospital for the immediately preceding acute-care stay.

CMS requires that an IPF enter a source-of-admission code on each claim. Before April 1, 2006,
CMS relied on source-of-admission code 4, “transfer from inpatient hospital,” to identify an IPF
claim that should not receive an additional emergency department payment. Because this code
did not indicate whether the beneficiary was admitted to the IPF from the same hospital or from
a different hospital, Medicare made both underpayments and overpayments for claims using this
code. In Change Request 3881, dated October 21, 2005, and effective April 1, 2006, CMS
established the more specific source-of-admission code D to identify an IPF claim for a
beneficiary who was admitted from the acute-care section of the same hospital. An IPF’s proper
use of this code is intended to alert the Medicare contractor not to apply the emergency
department adjustment.

PAYMENTS BASED ON INCORRECT SOURCE-OF-ADMISSION CODES

For 75 of the 100 sampled claims, Medicare contractors made improper payments to 69 hospital-
based IPFs for claims that the IPFs had billed with incorrect source-of-admission codes.
Because the IPFs did not use source-of-admission code D (or code 4, when applicable) on these
claims, the Medicare contractors were not aware that the beneficiaries had been discharged
directly from the same acute-care hospital and that the IPFs were therefore not entitled to
emergency department adjustments. As a result, the IPFs incorrectly received additional
payments for the costs of emergency department services covered by Medicare payments to the
acute-care hospitals for the beneficiaries’ immediately preceding stays. The resulting
overpayments totaled $3,111.

We estimated, based on our sample results, that Medicare contractors made $1.7 million in
overpayments for CYs 2006 and 2007 to hospital-based IPFs for emergency department
adjustments on behalf of beneficiaries who had been admitted to the IPFs upon discharge from
the acute-care section of the same hospital.




                                               4
CAUSES OF OVERPAYMENTS

Inadequate Controls at Inpatient Psychiatric Facilities

The 69 hospital-based IPFs that received overpayments had not established the necessary
controls to ensure that they used the correct source-of-admission code to prevent overpayments
for emergency department services. Officials of these IPFs stated that their billing personnel had
coded the source of admission incorrectly for one or more of the following reasons:

   •   At 31 IPFs, billing personnel were unaware that using an incorrect source-of-admission
       code could change the Medicare payment.

   •   At 23 IPFs, administrative personnel were not aware of CMS’s Change Request 3881
       containing instructions on the use of source-of-admission code D.

   •   At 10 IPFs, billing personnel made data entry errors because of staff turnover and the
       need for more training.

   •   At seven IPFs, some administrative personnel were aware of CMS’s Change Request
       3881 but had not communicated the information to billing personnel.

   •   At four IPFs, billing personnel mistakenly believed that source-of-admission code D
       should be used to bill outpatient claims rather than inpatient claims.

Inadequate Medicare Payment Controls

Medicare payment controls were not adequate to prevent or detect overpayments to hospital-
based IPFs that used incorrect source-of-admission codes on their claims. Specifically, the
Common Working File had neither prepayment edits to prevent overpayments when the acute-
care section of the same hospital submitted its claim first nor postpayment edits to detect
overpayments when the hospital-based IPF submitted its claim first. Additionally, none of the
four Medicare contractors that we contacted conducted periodic postpayment reviews to identify
and recover any overpayments to hospital-based IPFs.

RECOMMENDATIONS

We recommend that CMS:

   •   instruct its Medicare contractors to recover the $3,111 in overpayments for the sampled
       claims;

   •   instruct its Medicare contractors to immediately reopen the 54,702 nonsampled claims,
       review our information on these claims (which have overpayments estimated at
       $1.7 million), and recover any overpayments;



                                                5
   •   instruct its Medicare contractors to emphasize to hospital-based IPFs the importance of
       using source-of-admission code D to identify beneficiaries who were discharged from the
       acute-care section of the same hospital;

   •   establish edits in the Common Working File to prevent and detect overpayments to IPFs
       that use incorrect source-of-admission codes on claims; and

   •   consider conducting periodic postpayment reviews of claims submitted after our review
       to identify any claims that were billed and paid with incorrect source-of-admission codes.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
corrective actions that it was taking or planned to take. CMS stated that it would recover the
overpayments consistent with its policies and procedures and requested that we furnish the data
necessary for it to review claims and recover the overpayments. CMS’s comments are included
in their entirety as Appendix C.

As requested, we provided the data necessary for CMS to initiate its review and recovery efforts.




                                                6
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicare Part A claims submitted by hospital-based inpatient
psychiatric facilities (IPF) for dates of discharge in calendar years (CY) 2006 and 2007 and paid
by Medicare contractors for beneficiaries who were admitted to the IPFs upon discharge from the
acute-care section of the same hospital.

SAMPLING FRAME

The sampling frame was a database containing 54,802 paid claims that 1,208 hospital-based IPFs
submitted for beneficiaries with discharge dates in CYs 2006 and 2007 who were admitted to the
IPFs from the acute-care section of the same hospital.

SAMPLE UNIT

The sample unit was an IPF paid claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

The sample size was 100 claims.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLED UNITS

We consecutively numbered the sample units in the frame from 1 to 54,802. After generating
100 random numbers, we selected the corresponding sample units.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the overpayments.
      APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                           Sample Results

                                            Number of
              Sample          Value of      Miscoded      Value of
Frame Size     Size           Sample         Claims     Overpayments


  54,802        100           $781,345         75            $3,111



                 Estimated Value of Overpayments
       (Limits Calculated for a 90-Percent Confidence Interval)


                Point estimate                 $1,704,868

                Lower limit                     1,489,130

                Upper limit                     1,920,606
          APPENDIX C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
                                                                  Page 1 of 3
     ....-~
     ~-:/-
                                       .
..              DEPARTMENTOF HEALTH & HUMAN SERVICES                                    Centers. for Medicare & Medicaid Services


                                                                                        Administrator
                                                                                        Washington, DC 20201

                                                        APR 2 3 2010




              TO:


              FROM:
                                                                         fficer

              SUBJECT: 	 Office of Inspector Gene~al (OIG) RestrictedDraft Report: Nationwide Review of
                         Medicare Part A Emergency Department Adjustments for Inpatient Psychiatric
                         Facilities During CY 2006 and 2007 (A-OI-09-00504)

              Thank you for the opportunity to review and comment on the DIG draft report, ''Nationwide
              Review of Medicare Part A Emergency Department Adjustments for Inpatient Psychiatric
              Facilities During CY 2006 and 2007." The Centers for Medicare & Medicaid Services (CMS)
              appreciates the time and resources the DIG has invested to determine the extent to which fiscal
              intermediaries, Medicare Administrative Contractors, and om claims processing systems         '
              properly adjudicated claims with source-of-admission code D.

              The DIG found that hospital-based inpatient psychiatric facilities (lPFs) incorrectly coded the
              source of admission on 75 out of 100 sampled claims for beneficiaries who had been admitted to
              the IPFs upon discharge from the acute-care section 'of the sam~ hospital. CMS recognizes more
              work needs to be done to ensure we consistently issue proper payments on emergency
              department adjustments. CMS also understands IPFs require more education regarding the
              proper use of source-of-admission code D. CMS will work towards educating inpatient
              psychiatric facilities and implementing new Common Working File edits in a future quarterly
              systems release.

              OIG Recommendation

              CMS instruct its Medicare contractors to recover the $3,111 in overpayments for the sampled
              claims.

              CMS Response

              The CMS concurs that the$3,111 in overpayments should be recovered. CMS planS to recover
              the overpayments identified consistent with the agency's policies and procedures.
                                                                                     Page 2 of 3



Page 2- Daniel R. Levinson

TheCMS will request that the 010 furnish for each overpayment or potential overpayment the
data necessary (Medicare cOntractor numbers, provider nuilibers, claims infomiation including
the paid date, HIC numbers, etc.) to initiate and complete recovery action. In addition, Medicare
contractor sp~ificdata should be Writien to separate cd-roms or separate hardcopy worksheets in '
order to b~tter facilitate the transfer of information to the appropriate contractors.

OIG Recommendation

CMS instruct its Medicare contractors to immediately reopen the 54,702 nonsampled claims,
review OIO's information on these claims (which have overpayments estimated at $1.7 million),
and recover any overpayments.

CMS Response

The CMS concurs. CMS will analyze a subset of the 54,702 nonsampledclaims to determine the
cost ~ffectiveness of conducting review of all claims. CMS will also collect applicable  ­
overpayments identified during the claims review. eMS will share the results of the cost
effectiveness study across fee-for-service claims processing contractors.

OIG Recommendation
         -                                               -                                -

CMS-instructits Medicare contractors to emphasize to hospital-based IPF's the importance of
using source-of";admission codeD to identify beneficiaries who weredi,scharged from the acute-­
care section ofthe same hospital.

eMS Response -­

The CMS concurs. - fu the short term, we will develop a Special Edition MLN Matters article
directed towards hospital-based IPFs emphasizing the use of source-of- admission code D
according to billing guidelines and stressing the tmportanceofhow this code directly impacts
payments to hospital.;.based .IPFs.In addition, as part of RecOmmendation 4 below, we plan to
issue instructions to our Medicare contractors as part ofthe CMS Quarterly System Release
process toensureIPFs properly use sOurce-of-admission codeD. We expect instructions to be
implemented for the April 2011 quarterly system release.

OIG Recommendation

CMS establish edits in the Common Working File to prevent and detect overpayments to IPFs
that use incorrect source of admission
                                    , codes on claims.
                                              -




CMS Response

The CMS concurs. CMS will establish edits in the Coinmon Working File to prevent and detect
overpayments to IPFs that use incorrect Source of Admission Codes on claims as part of our
                                                                                        Page 3 of 3



 Page 3 - Daniel R. Levinson

 CMS Quarterly System Release. We expect instructions to be implemented for the April 2011
 quarterly system release ..

. OIG Recommendation

 CMSconsider conductfng periodic post payment reviews for claims submitted after OIG's
 review to identify any claims that were billed and paid with incorrect source-o~-admission codes;

 eMS Response

 The CMS conCurs. The Recovery Audit Contractors (RACs) review Medicare claims ona post
 payment basis and are tasked with identifying underpayments and overpayments. While CMS
 does not mandate areas for RAC review, we will share this information with them and encourage
 thein to consider these findings as they decide what claims to review.
